No.

IN THE
SUPREME COURT OF THE UNITED STATES

JOSEPH PETERSON
PETITIONER
VS.
STATE OF LOUISIANA
RESPONDENT(S)
PROOF OF SERVICE
I, Joseph Peterson, do swear or declare that on this date,
2020, as required by
Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party's counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Leon A. Cannizzaro
District Attorney
619 White St.
New Orleans, LA 70119
The Louisiana Supreme Court
State of Louisiana
400 Royal Street
New Orleans, LA 70130
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

,203?
(Signature)

16

